 Office of Inspector General

     Audit Report

    ARRA LESSONS LEARNED:
OPPORTUNITIES EXIST FOR FAA TO
FURTHER IMPROVE ITS OVERSIGHT
  OF AIRPORT GRANT PAYMENTS
     Federal Aviation Administration

      Report Number: AV-2013-071
       Date Issued: April 18, 2013
           U.S. Department of
                                                               Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: ARRA Lessons Learned:                                               Date:   April 18, 2013
           Opportunities Exist for FAA To Further
           Improve Its Oversight of Airport Grant
           Payments
           Federal Aviation Administration
           Report No. AV-2013-071

  From:    Jeffrey B. Guzzetti                                                     Reply to
                                                                                   Attn. of:   JA-10
           Assistant Inspector General
             for Aviation and Special Program Audits

    To:    Federal Aviation Administrator

           On February 17, 2009, the President signed the American Recovery and
           Reinvestment Act (ARRA), designating $1.1 billion for Federal Aviation
           Administration (FAA) Airport Improvement Program (AIP) grants. To maximize
           the impact of these grants, ARRA required Federal agencies to hold grantees
           accountable for their expenditures, and the Office of Management and Budget
           (OMB) directed agencies to increase grantee oversight for that purpose. 1

           Given the sizeable amount of funds involved and our previous findings of
           improper payments involving AIP grants, 2 our audit objectives were to determine
           whether FAA’s oversight of ARRA grantees was sufficient to (1) prevent or detect
           improper payments and (2) ensure funds were used in accordance with ARRA
           requirements. 3 To achieve our objectives, we randomly sampled 19 out of
           292 airports, compared payments with supporting documents, and evaluated the
           sampled payments to ensure they were for approved grant and ARRA purposes.
           We conducted our work between February 2011 and December 2012 in
           accordance with government auditing standards prescribed by the Comptroller
           General of the United States. As part of this audit, we selected a statistical sample

           1
             OMB, “Updated Implementing Guidance for the American Recovery Reinvestment Act of 2009,” April 3, 2009.
           2
             Improper Payments Identified in FAA’s Airport Improvement Program (OIG Report No. FI-2011-023), December 1,
           2010. In this report, we identified $13 million in improper payments in FAA’s 2008 AIP program. OIG reports are
           available on our Web site at http://www.oig.dot.gov/.
           3
             For the purpose of this report, we define “ARRA requirements” as a collective term to refer to ARRA statutory
           requirements, Presidential direction, and OMB and FAA guidance related to ARRA oversight.
                                                                                                                      2


of 365 transactions amounting to $46.6 million out of a universe of $1.1 billion,
which allowed us to project our results. Exhibit A provides more details on our
scope and methodology.

BACKGROUND
In 2002, Congress passed the Improper Payments Information Act (IPIA), which
provides a framework for agencies to use in testing for improper payments,
identifying their causes, and implementing solutions to reduce them. In August
2006, OMB established detailed requirements for complying with IPIA and further
clarified that improper payments include the following:

•   payments to ineligible recipients,
•   payments for ineligible services or services not received,
•   payments with insufficient documentation,
•   duplicate payments, or
•   payments in incorrect amounts. 4

In implementing IPIA and OMB guidance, FAA’s AIP Handbook 5 further defines
payment eligibility and documentation requirements. For example, payments for
work outside the scope of the FAA-approved grant are not eligible (e.g., office
equipment, passenger parking facilities, and food concessions). The Handbook
also describes what documentation the Agency considers sufficient to support
grantee payment requests. FAA’s Airport District Offices (ADOs) are responsible
for awarding and overseeing AIP grants. ADOs are located nationwide and report
to FAA’s nine regional offices.

In addition to IPIA and OMB guidance, Congress, the President, and FAA
imposed additional restrictions on how ARRA funds could be used. The ARRA
legislation established tight timeframes for distributing and expending funds.
ARRA also required that FAA use its established AIP process and ensure grants
did not supplant planned expenditures from other sources. In support of the Act,
the President directed executive branch agencies to undertake “unprecedented
efforts…to provide public transparency and accountability of [ARRA]
expenditures.” 6 To achieve these purposes, FAA issued guidance 7 in June 2009
stating ARRA funds were subject to “extraordinary scrutiny, with strict
distribution and reporting requirements,” and directed staff to (a) track ARRA

4
  For reporting purposes, we categorized improper payments as either ineligible or insufficiently documented. The first
category comprises payments made to ineligible recipients or for ineligible services. The second category includes
payments that were improper because payment amounts did not match supporting documentation.
5
  FAA Order 5100.38C, June 28, 2005. The AIP Handbook provides guidance to FAA staff about the administration of
the Airport Improvement Program.
6
  Presidential Memorandum, “Ensuring Responsible Spending of Recovery Act Funds,” March 20, 2009.
7
  FAA Stakeholder Guidance, “American Recovery and Reinvestment Act (ARRA) of 2009,” June 9, 2009.
                                                                                                                       3


funds separately at all times, (b) not allow ARRA and AIP funds to be mixed or
commingled, and (c) not issue grants with both types of funds in the grant.

RESULTS IN BRIEF
FAA’s oversight process was not sufficient to prevent or detect more than
$1.4 million in improper payments. Of this total, $890,657 were for services that
lacked FAA’s approval, expenses that are not eligible for payment from Federal
grant funds, or payments that were billed to the wrong grant. For example, San
Francisco International Airport officials improperly billed ARRA for over
$832,000 for unapproved taxiway and drainage work, as well as ineligible survey
equipment. 8 At other airports, we identified almost $550,000 for services that
lacked sufficient documentation to support payment amounts. For example,
Washington Dulles International Airport lacked support for contractor invoicing of
about $113,000 billed for crushed stone, concrete, and drainage. These improper
payments occurred in part because FAA over-relies on grantees to ensure their
payment requests are accurate and supported. Moreover, the Agency’s oversight of
payments is typically limited to reviewing sponsor summary documentation,
which frequently lacks sufficient detail to reveal ineligible or erroneous charges. 9
While Agency officials report they are currently revising their procedures for
overseeing AIP grantees, implementation of these changes will be critical to
minimize future improper payments. Using statistical sampling techniques, we
estimate that more than $1.4 million of improper payments we identified in our
sample would project to about $24.3 million in improper payments nationwide, or
2.3 percent of all payments. 10

FAA’s oversight also did not ensure that airport grant fund expenditures fully met
ARRA and AIP requirements. Examples included allowing grantees to use ARRA
funds to cover prior year work and accepting single bids without seeking lower
prices. In the first case, FAA reimbursed the State of Alaska, recipient of eight
airport ARRA grants, almost $4.7 million in ARRA funds for prior airport
planning and design work that took place between 2004 and 2008, well before
ARRA’s passage in 2009. While the Act directed FAA to use its normal AIP grant
process (which permits such reimbursements), the Act also directed that the funds
be used to create jobs and stimulate the economy (i.e., through new work). This
apparent conflict could have been avoided if FAA had reimbursed the State of
Alaska with AIP planning grants and used the $4.7 million instead on other new
job-creating projects. In the second case, FAA regional offices allowed two
grantees (Georgetown, KY, and La Grande, OR) to accept single bids without

8
  FAA agrees these payments were improper and is seeking recovery of the funds from the airport sponsor.
9
  During the course of our audit, we identified a number of improper payments that were outside our original sample.
As such, we did not include these payments in calculating our projection.
10
   The $24.3 million best estimate is applicable to the $1.1 billion in ARRA payments only, with an estimated range
from $11.5 million to $37.1 million, at 90 percent confidence.
                                                                                                                    4


negotiating or comparing the proposals to the cost of similar projects. This raises
questions as to whether the grantees obtained the best possible prices—especially
since one of the bids was 22 percent higher than the airport’s original cost
estimate. These and other examples discussed in this report highlight opportunities
for improving the efficiency and effectiveness of FAA grant oversight.

We are recommending that FAA follow through on recovery of improper
payments identified in this report. We also make several recommendations aimed
at improving FAA’s oversight procedures.

FAA OVERSIGHT DID NOT DETECT OR PREVENT MORE THAN
$1.4 MILLION IN IMPROPER ARRA PAYMENTS
FAA oversight of ARRA
                                    Table 1. Identified and Projected
expenditures did not detect more
than $1.4 million in improper
                                    Improper Payments
payments for work that was Category                     Improper
                                                                      Projection
ineligible      or   insufficiently                     Payments
documented. (See table 1 and Ineligible Services           $890,657    $4,920,360
exhibit B.) Overall, using
                                    Insufficient
statistical sampling techniques, Documentation             $549,807   $19,377,262
we project that a total of about
$24.3 million were improper, or         Total            $1,440,464   $24,297,622
about 2.3 percent of the Source: OIG analysis
$1.1      billion 11  that    FAA
distributed in ARRA payments. Improper payments persist because FAA largely
delegates financial oversight—including assuring payment accuracy—to the
grantee. FAA also requires grantees to submit only summary-level supporting
documentation, which may not be sufficiently detailed to reveal ineligible or
erroneous charges. FAA officials told us that they are taking several steps to
improve their oversight of AIP grants. These include: revising the AIP Handbook,
training staff on these revisions, conducting initial risk assessments of all
AIP sponsors, and reassessing them every third year. FAA also plans to move to
“e-invoicing,” which will require grantees to provide support documents
electronically with each payment request.




11
     Figures are rounded. For example, our total universe of ARRA payments was $1,056,413,232.25 or $1.1 billion.
                                                                                                                 5




Two Airports Used Approximately $890,000 in ARRA Funds for
Ineligible Services
We        identified     approximately Table 2. Ineligible Services
$890,000      in improper ARRA
payments at five airports—most of Airport or Sponsor                   Improper
                                                                       Payments
which occurred at San Francisco
                                       Fernando Luis Ribas Dominicci
Airport—for services that were Airport, PR                               $57,844
ineligible (see table 2). According to San Francisco International, CA  $832,813
OMB, an ineligible service includes                 Total               $890,657
expenditures for work or materials Source: OIG analysis
that are outside the scope of an
approved grant or not permitted under any grant provision. 12 Specific examples
include:

• San Francisco International Airport (SFO) billed about $772,000 to its two
  ARRA runway grants for unapproved taxiway paving and drainage projects
  that the airport never requested in its grant applications, and hence, FAA never
  approved. 13 SFO also improperly directed its contractor to purchase and bill to
  ARRA $61,128 in grant-ineligible survey equipment that the airport wanted for
  itself. These costs were identified on documents submitted to FAA only as
  “miscellaneous” or “unanticipated pavement conditions.” Despite these large
  undefined dollar amounts, FAA did not contest these payments. Instead,
  Agency officials followed their normal oversight policy, which only requires
  reviewing summary level documents to determine whether a payment request
  is “reasonable.” However, after we called these improper payments to FAA’s
  attention, the Agency verified all of these costs were ineligible and are
  recoverable. 14 In addition, FAA stated it would review all current and future
  construction change orders for eligibility, proper scoping, and cost
  reasonableness. 15 FAA officials also stated that they will no longer allow
  airport sponsors to bill AIP grants for expenses labeled as “miscellaneous.”

• The Puerto Rico Port Authority improperly billed more than $57,000 of the
  Port’s indirect costs (i.e., administrative employees’ time) directly to its ARRA
  runway project. According to OMB, administrative time is not readily
  assignable directly to a grant unless the time can be identified specifically as
  being devoted to the grant’s performance. The Port Authority’s administrative

12
   OMB Circular A-123, April 14, 2011.
13
   In addition to incorrectly charging ARRA grants, SFO also billed unapproved work to regular AIP grants that was
not requested in grant applications.
14
   After we identified the incorrect charges, FAA opened an inquiry into SFO’s use of regular AIP funds.
15
   FAA also re-examined selected SFO grant payments for past AIP-funded construction contracts (2010 to 2011). This
review identified over $500,000 in additional improper payments.
                                                                                                              6


       charges to ARRA did not meet this standard because documentation provided
       in support of employees’ administrative time charges from the Port’s official
       accounting system was insufficient to determine if those costs were devoted
       directly to the ARRA-funded project. 16

Nine Airports Billed Nearly $550,000 for Insufficiently Documented
Payments
At nine airports in our sample, we                      Table 3. Insufficiently Documented
identified nearly $550,000 in                           Items
improper        payments        for
insufficiently documented services                      Airports or Sponsors
                                                                                                   Improper
(see table 3). According to FAA                                                                    Payments
guidance, expenditures must be                          Bacon County, GA                              $418
documented to show that work                            Bob Hope/Burbank, CA                         $4,284
met all grant and contract                              Denver International, CO                   $128,487
requirements for reimbursement.                         Georgetown-Scott County, KY                 $35,637
                                                        Merrill Field, AK                            $8,400
In some of these cases, we could San Francisco International, CA   $87,632
not determine that work billed by a
                                       Sioux Gateway, IA          $164,413
contractor was actually completed
                                       Spokane International, WA     $7,891
as     claimed.     For    example,
Washington Dulles International Washington Dulles, VA             $112,645
                                                     Total        $549,807
Airport did not have adequate
documentation to support about Source: OIG analysis
$113,000 in costs for crushed
stone, concrete, and drainage. Similarly, SFO did not have sufficient
documentation to support $87,632 in payments for a variety of work, including
installation of transformers and wiring for runway lighting.

At Georgetown-Scott County Airport (KY), the airport paid a local utility
company approximately $33,000 to relocate a power line and billed the cost to its
ARRA grant. However, the work was outside the scope of the approved grant.
FAA’s AIP Handbook requires work outside of scope to be pre-approved via
supplemental agreement and/or grant amendment, and states the extra work should
be closely related to the grant purpose. 17 According to the airport, FAA verbally
approved the work, and it was related because the power line ran beneath the
runway. Yet, without documentation demonstrating Agency approval, payment for
this work is improper.

We also identified one airport in our sample—Sioux Gateway—that lacked
documentation showing required price and cost analyses had been performed for

16
     OMB Circular A-87, revised May 10, 2004.
17
     The AIP Handbook also prohibits adding extra work solely because grant funds are available.
                                                                                                                     7


numerous contract change orders. 18 FAA guidance requires this analysis to ensure
the grantee is not overcharged, and directs grantees to compare the proposed new
price or cost to that for similar work or items, as well as with the original
specifications. Yet, Sioux Gateway airport billed $164,413 for change orders that
did not have the required analyses. Instead, airport resident engineers merely
signed the change orders and subsequent invoices. FAA headquarters officials told
us they agreed with the practice of accepting signatures as sufficient evidence that
the costs were reasonable, although the Agency’s own AIP guidance specifies that
sponsors are required to perform a cost or price analysis for every procurement
action that uses AIP funds, including contract modifications. Without documented
analyses, the Agency cannot know whether grantees and the Federal government
are being overcharged for contract modification work.

Generally speaking, the variety of improper payments and examples we describe
above show that FAA could detect more improper payments if it required grantees
to provide more detailed support. Many of the improper payments we identified
were found by reviewing the supporting documentation provided by contractors to
grantees, not merely the required documents provided by grantees to FAA. In
contrast, FAA limits its own opportunities to identify improper payments by not
expecting or training local ADO staff to conduct more detailed financial oversight
(such as reviewing additional supporting documentation). Agency officials report
they are revising their procedures for AIP grantee oversight, such as conducting
initial risk assessments of all AIP sponsors, reassessing them each third year, and
requiring grantees to provide supporting documents electronically with payment
requests. However, unless changes include more detailed reviews of
documentation by staff trained to identify financial errors and inconsistencies, we
are not confident that revising procedures will minimize future improper
payments.

Additional ARRA and AIP Improper Payments Identified Outside of
Our Statistical Sample
During our review, we identified approximately $2.2 million in additional ARRA
improper payments (see exhibit C) and $1.2 million in AIP improper payments
outside our original sample. 19 Although not included in the calculation of our
statistical projections, these improper payments reinforce our overall finding
regarding weaknesses in FAA’s oversight procedures. Specific examples include:

• $184,000 in ARRA payments involving a variety of ineligible items. These
  items, which FAA agrees were improper, include a baggage scanner and

18
  The AIP Handbook provides direction on the documentation and analysis required to support change orders.
19
  As required by the generally accepted Government auditing standards prescribed by the Comptroller General of the
United States, when we found improper payments or airport grantees not complying with ARRA or AIP criteria, we
conducted additional work to determine whether the problems might be systemic or included fraud or abuse.
                                                                                                                8


     televisions for a passenger waiting area (Pitt County-Greenville Airport, NC),
     an engineering field office trailer (Boston Logan International Airport, MA),
     and a copy machine, along with other items charged to the wrong grant (Huslia
     Airport, AK).

• Nearly $1.3 million in insufficiently documented change orders at two
  ARRA-funded passenger terminal projects. 20 For example, at Pitt County-
  Greenville Airport (NC), change orders increased the project cost by $620,076.
  Likewise, at Asheville Regional Airport (NC), change orders added $671,805
  in cost and price increases. In neither case did the airport conduct and
  document a cost and price analysis to ensure that changes made on the project
  were a good value to the Government.

• More than $1.2 million in improper AIP grant payments at SFO for
  unapproved taxiway work. According to FAA’s AIP Handbook, before any
  new work can be added to an AIP grant, the work “must be closely related to
  work contained in the grant description.” Yet, the taxiway work in question
  was not only unrelated to existing AIP runway grants, but also in an area of the
  airport neither adjacent to nor intersecting the runway being rehabilitated.
  After we brought these payments to FAA’s attention, the Agency agreed the
  entire $1.2 million was improper and recoverable from SFO.

FAA OVERSIGHT DID NOT ENSURE THAT SOME ARRA
EXPENDITURES FULLY COMPLIED WITH ARRA AND AIP
REQUIREMENTS
FAA did not ensure that airport grantees used all ARRA funds in full accordance
with ARRA and AIP requirements. As a result, grantees spent ARRA funds in a
variety of ways without assurance that the funds were used as effectively as
possible. Shortfalls included allowing grantees to (1) use ARRA funds to cover
prior year work; (2) inappropriately mix ARRA and AIP funds for some projects;
(3) accept single bids for projects without conducting cost comparisons;
(4) inaccurately describe scope in project documents, leading to cost growth; and
(5) ignore the requirement to maintain sufficient records of ARRA-funded work.
In our opinion, these shortfalls could have been avoided if FAA ensured its
Airport District Offices (ADOs) rigorously held airports to ARRA and AIP
requirements that are critical to effectively using grant funds.




20
  These amounts reflect change orders producing net increases outside our sample. Change orders in our sample
produced net decreases of over $1.1 million, which we accepted as reasonable.
                                                                                                                            9


Alaska Used Almost $4.7 Million in ARRA Funds to Cover Prior Year
Expenditures, Rather Than Meeting a Key Requirement To Create
Jobs and Stimulate the Economy
In the State of Alaska, FAA did not ensure that all ARRA funds met the Act’s
criteria for job creation. The Act established several key requirements for using
ARRA grant funds, including stimulating the economy and creating jobs,
obligating grant funds quickly, and complying with FAA’s normal AIP process.21
While FAA successfully met the latter two requirements, we found one notable
instance where funds were not used to achieve economic stimulus. Specifically,
FAA reimbursed $4.7 million in ARRA funds to the State of Alaska for prior
planning and design at eight airports. This work had been completed between
2004 and 2008—years before the passage of ARRA in 2009. Further, the State
deposited the $4.7 million in the State’s general fund, rather than committing it to
creating jobs and stimulating the economy, which was ARRA’s purpose.

According to FAA regional officials, Federal regulations and FAA’s normal AIP
grant process allow planning and design costs to be eligible for reimbursement.
However, by doing so, the Agency did not maximize the amount of funds that
could be dedicated to job creation and economic stimulus as called for by ARRA.
To resolve the differences between AIP and ARRA requirements, FAA could have
funded Alaska’s airport planning and design work with regular AIP funds. That
would have allowed Alaska to reserve ARRA funds for new stimulus-related
construction projects in the State or FAA to provide the funds for projects
elsewhere in the Nation.

Two FAA Airport District Offices Did Not Maintain Strict Separation
Between ARRA and Non-ARRA Funded Projects
FAA airport district offices varied as to how much effort they put into separating
ARRA and non-ARRA funded projects. While not specifically cited in the Act,
strictly separating ARRA funds was necessary to meet ARRA and FAA
requirements for transparency and accountability, and to ensure funds were spent
in accordance with approved grant agreements. Accordingly, FAA issued
stakeholder guidance 22 directing its field staff to track ARRA funds separately at
all times and not allow ARRA and AIP funds to be mixed or commingled. Yet, we
found several examples where separation was not maintained. For example:

• Anchorage, Alaska—FAA regional officials overseeing several grants at
  Merrill Field, AK, did not take steps to ensure ARRA and regular AIP funds
  were kept separate. At Merrill Field, ARRA funds were used to pave a taxiway

21
   In FAA’s stakeholder guidance, the Agency directed regional officials “to issue grants for high priority projects that
can proceed to construction quickly to preserve and create jobs and promote economic recovery.”
22
   FAA Stakeholder Guidance, “American Recovery and Reinvestment Act (ARRA) of 2009,” June 9, 2009.
                                                                                   10


   and AIP funds to pave a runway. An inherent risk existed that funding could
   become mixed because the airport hired a single contractor to pave both areas
   simultaneously. To reduce this risk and ensure accountability, FAA requires
   airports to collect weigh tickets labeled with project descriptions for each
   truckload of asphalt delivered. However, we found none of the asphalt weigh
   tickets collected by the airport were marked for the ARRA taxiway project; all
   were identified for the runway, or labeled for a non-airport project. As a result,
   FAA and airport officials had to rely on less accurate methods (i.e., daily
   inspection reports and asphalt measurements) for estimating the amount of
   work done on the ARRA-funded taxiway versus the AIP-funded runway.
   Given the Agency’s emphasis on keeping ARRA funds separate, local FAA
   and airport officials should have taken additional steps to ensure weigh tickets
   were correctly labeled.

• Washington, DC—Similarly, ADO officials in Washington, DC, allowed
  ARRA and AIP funds to be commingled. At Washington Dulles International
  Airport, the ADO issued two grants for a pavement project involving runway
  and connecting taxiways. In implementing the Agency’s stakeholder guidance,
  FAA included a cost allocation plan and schematic diagram in both grant
  packages showing how costs would be distributed between ARRA and AIP
  funds. However, the two documents conflicted in that the allocation plan
  allowed taxiway costs to be split between the two funding sources, while the
  diagram assigned all taxiway costs to AIP. While Agency officials
  acknowledged that differences between the two documents created some
  confusion, they argued the schematic diagram was only intended to be a
  general description of the respective runway and taxiway work areas.
  Nevertheless, the cost allocation plan alone did not provide sufficient controls
  to prevent some pavement work being incorrectly charged to ARRA. Based on
  our review, Dulles airport officials agreed to correct about $556,000 of ARRA
  mischarges involving taxiway work.

Two Grantees Accepted              Single     Bids Without        Negotiating      or
Comparing Prices
Our review identified two grantees that accepted single bidders’ cost proposals
without negotiating or comparing the proposals to the cost of similar runway
projects elsewhere. These two cases raise questions as to whether these grantees
obtained the best possible prices. FAA AIP guidance states that when a sponsor
receives only a single bid for a project, the airport sponsor should seek to negotiate
a better price, and compare the proposal to its own engineer’s estimate, as well as
the cost of other similar projects. Additionally, the guidance states that FAA
                                                                                                                     11


officials should encourage the negotiations. 23 In interpreting these guidelines,
FAA officials point out that “should” does not mean that airport sponsors “must”
negotiate prices and compare costs after receiving a single bid.

Nevertheless, had FAA guidance required price negotiations and cost
comparisons, significant savings might have been achieved—as illustrated by the
following two airports we examined.

• La Grande/Union County Airport, OR, received only one bid that was
  22 percent higher than the airport’s engineering estimate ($907,000 versus
  $745,000). Yet, the airport accepted the bid without seeking a lower price.
  Because of the large differential, we asked airport officials why they did not
  negotiate for a better deal. According to the airport’s resident engineer, the
  bidder was the only contractor in the area supplying gravel, and therefore, any
  other contractor would have had to use the bidder’s gravel anyway. However,
  La Grande is 170 miles from the city of Boise, ID, where other contractors
  were located who might have been more amenable to negotiations. In fact, one
  of these contractors was used by the Pocatello Regional Airport for its ARRA
  project, even though Pocatello is more than 230 miles away from Boise.

• Georgetown/Scott County Airport, KY, also received a single bid, which
  was 5 percent below the airport’s engineering estimate for a runway project
  ($2.87 million versus $3.02 million). According to the airport’s resident
  engineer, the airport made no effort to negotiate or reduce the bid because it
  was already below the engineer’s estimate. However, many ARRA-funded
  projects were executed at far below engineer’s estimates due to the economic
  recession in 2008 and 2009 when many contractors were drastically reducing
  bids to obtain work. In fact, 67 of 364 FAA-funded ARRA projects
  (18 percent) were bid at 25 or more percent below the airports’ requested grant
  amount. Given the existing economic circumstances at the time, we believe the
  airport should have complied with FAA guidance and compared the proposal
  to similar runway projects elsewhere, rather than presume that it had received
  the best possible deal.

FAA Reimbursed Two Airports for Cost Increases Caused by
Inaccurate Project Documentation
Two airports in our review experienced large cost increases due to inaccurate
project documentation. FAA policy states that contractors are responsible for
carefully examining the site of the proposed work and verifying the quality and

23
  According to the AIP Handbook: (1) the low bid should be compared to similar type work; if only one bid is
received, (2) FAA should encourage the sponsor to negotiate with the sole bidder to obtain lower prices; and (3) if there
are less than five bidders, and the low bid exceeds the engineer’s estimate by 10 percent, the grant should not be issued
unless FAA is satisfied that the costs are reasonable.
                                                                                                                   12


quantity of work to be performed. Further, FAA policy states that the contractor’s
“submission of a proposal shall be prima facie evidence that the bidder has made
such examination and is satisfied as to the conditions to be encountered in
performing the work.” 24 Yet, as the following two examples illustrate, FAA
reimbursed sponsors for extra contractor work arising from airport miscalculations
in project documents.

• San Francisco International Airport published an inaccurate description 25 of
  its runway rehabilitation project that led its winning bidder to submit an
  unrealistically low cost proposal for the work. 26 Subsequently, the airport
  agreed to pay the contractor a 32 percent increase in the unit cost of installed
  asphalt. This ultimately meant spending $852,780 over the original bid for
  extra paving costs. Instead of enforcing its policy and holding the airport
  accountable for the inaccurate project description, FAA approved the airport’s
  request to bill the extra costs to ARRA through a change order. 27 This case was
  especially egregious because, according to a local FAA official, it was well
  known that the paving project would be more complicated than the simple
  description in the bid documents.

• The Puerto Rico Port Authority, sponsor of Fernando Dominicci Airport,
  solicited bids for a runway rehabilitation project using a project description
  that contained significant errors in the project’s design. For example, the Port
  Authority’s consultant for design and construction management significantly
  underestimated the amount of pavement milling by a factor of 7 (i.e., about
  18,000 versus 128,000 square feet). These errors translated into about
  $549,000 in extra milling, paving, and painting costs. While the local FAA
  project manager questioned some of the costs—initially denying payment of
  approximately $110,000—FAA headquarters ultimately determined the Port
  should be reimbursed for all the extra costs.

FAA headquarters officials point out that the extra work—in both cases—would
have been covered by the grant if the project had been correctly described;
however, this position is inconsistent with the Agency’s guidelines that call for
grantees and contractors to be held responsible for accurately and completely
describing and verifying project work. In addition, FAA provides no incentive to
grantees to ensure that project documents are accurate and complete or that


24
   FAA Advisory Circular 150/5370-10E, “Standards for Specifying Construction of Airports,” September 30, 2009.
25
   In the bidding documents, the project was described as a simple 3-inch grinding and repaving of a runway. In
actuality, the old pavement had settled irregularly, making grinding and paving significantly more complex and costly.
26
   The contractor bid $70.50 per ton, which the airport agreed to increase to $93 per ton.
27
   A closer review of other San Francisco grants revealed that inadequate management and contracting practices were
not limited to ARRA projects. The airport had built into its contracts generous allowances for undefined work, leaving
grant funds vulnerable to cost growth as well as potential fraud, waste, and abuse.
                                                                                13


contractors’ bids are based on the actual work they expect to do. This in turn may
create opportunities for fraud or abuse that could otherwise go undetected.

Record Keeping at Three Airports Was Insufficient
Both FAA’s AIP and construction guidance provide detailed standards for record
keeping, such as requiring airport managers to maintain daily construction records.
Moreover, OMB requires that in order for a payment to be proper, sufficient
documentation must be available at the time of payment. However, three airports
in our sample did not fully meet these requirements. For example:

• At La Grande/Union County Airport, OR, the airport did not maintain daily
  records to verify the quantities of individual line items (e.g., yards of removed
  pavement) the contractor was billing to ARRA. As a result, the project
  manager had to search for other documentation, and we had to rely on
  secondary sources, such as project drawings, to reach a conclusion that
  payments were accurate.

• At Merrill Field, AK, the airport did not ensure that asphalt and gravel weigh
  slips were marked with the correct project title and number, making it difficult
  to determine which work was properly chargeable to ARRA versus a separate
  AIP project occurring simultaneously. As a result, we relied on summary
  tabulation sheets maintained by the airport’s engineer to determine delivery
  quantities.

• At Rosebud Sioux Tribal Airport, SD, the airport did not retain daily
  delivery records for water measured in thousands of gallons per day. As a
  result, we relied on weekly summary totals to determine whether the payment
  was proper.

While the above airports were ultimately able to supply additional documentation
supporting that the work was accomplished, these records had not been properly
developed or maintained. Moreover, these airports were not able to provide
needed records at the time of our site visit, raising questions as to whether the
documentation was available at the time of payment, as OMB requires.

In contrast, some airports in our sample were very adept at maintaining project and
grants records and making them available during our site visits. For example, at
Baltimore-Washington International Airport, the resident engineer kept excellent
records and could readily document support for each payment we reviewed. Other
airports, including Pitt-Greenville (NC) and Sioux Gateway (IA), made project
and grant records available to FAA on a secure Web site. Although not required
by FAA guidance, such efforts not only increase the airports’ transparency and
                                                                                14


accountability, but also allow local ADO officials to conduct more thorough and
timely oversight without incurring travel costs.

CONCLUSION
ARRA rapidly injected an unprecedented amount of funding into the U.S.
economy, and required an equally unprecedented amount of oversight by Federal
agencies to ensure that airport grantees spent funds appropriately. However, even
after ARRA, sufficient grant oversight should always be a priority for agencies,
and is needed in order to ensure fiscal accountability. As such, our work on ARRA
provides important lessons learned for FAA’s oversight of all its grant funds. In
particular, FAA’s reliance on airport grantees to ensure the accuracy of their own
payment requests is not sufficient to prevent some improper payments.
Furthermore, the high level summary documentation that FAA collects is unlikely
to reveal many billing errors. While FAA’s planned revisions to its grant oversight
process show promise, these enhancements are not expected to be completed until
mid 2013. Until these and other changes recommended by our report are
implemented, FAA will run the risk of additional improper payments.

RECOMMENDATIONS
To improve its oversight of AIP grants and prevent improper payments, we
recommend that FAA:

1. Develop and implement a plan to maximize the recovery of ARRA and AIP
   improper payments identified in this report.

2. Require ADOs to examine a representative sample of grant payments each year
   through direct review of contractors’ invoices and other supporting documents.

3. Revise and enforce Agency policy regarding contract modifications and
   change orders by requiring an appropriate dollar threshold for price and cost
   analyses.

4. Revise Agency policy to require that airport sponsors perform cost
   comparisons and contract negotiations in cases involving a single bidder.

5. Enhance Agency enforcement policies to ensure airport sponsors or contractors
   are held accountable for any cost increases due to errors in project description
   documents.

6. Improve the Agency’s oversight and enforcement of airport grant record
   keeping by expanding ADO electronic access to sponsor project and grant
   files.
                                                                                  15


7. Incorporate a checklist into existing ADO grant oversight practices to verify
   compliance with relevant OMB and FAA financial policies, particularly in
   such areas as cost eligibility, change orders, price and cost analyses, and single
   bid negotiations.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA our draft report on December 21, 2012, and received FAA’s
response on March 11, 2013. FAA’s response is included in its entirety in the
appendix to this report. In its response, FAA stated that more than $1.1 million in
improper ARRA payments and almost $1.2 million in improper AIP payments that
we identified is recoverable. FAA also concurred with recommendations 1 and 5,
and partially concurred with recommendations 2, 3, 4, 6, and 7. FAA’s planned
actions for recommendations 1, 5, and 6 met the intent of our recommendations
and where appropriate included reasonable timeframes for implementation.
However, we are requesting that FAA provide additional information or
reconsider its response for recommendations 2, 3, 4, and 7, as detailed below.

FAA partially concurred with recommendation 2 and requested that the
recommendation be closed based on the Agency’s alternative actions. Specifically,
FAA noted that, in 2012, the Agency implemented several improvements to its
grant oversight, including a tool for assessing grantee risk and a grant payment
system requiring grantees to electronically submit attachments supporting their
reimbursement requests. However, we are concerned that these improvements may
not translate into FAA staff providing any additional oversight of contractors’
invoices and other supporting documents. The majority of improper payments we
identified were found by reviewing those kinds of documents. Therefore, as FAA
implements its new risk-based process over the next year, we request that the
Agency provide us documentation that demonstrates that its staff is reviewing
contractors’ invoices and other supporting documents for grantees deemed to be
high risk.

FAA partially concurred with recommendation 3, but did not see a need to
incorporate a review threshold for price and cost analyses given a recent related
policy revision. Specifically, FAA cited the need to allow the revision to work its
way through the system before making any further changes to the Agency’s
policy. However, while FAA’s 2012 policy revision does provide more detailed
instructions on these analyses, it does not address our underlying concern that
grantees may continue to disregard the Agency’s requirements for these analyses
and incur unreasonable costs. As we noted in our report, some grantees are not
conducting required price and cost analyses at all—even for change orders in the
hundreds of thousands of dollars. Moreover, FAA officials we interviewed stated
                                                                                16


they do not have the resources to ensure all price and cost analyses are completed.
Given the Agency’s limited oversight resources and our concerns about grantee
compliance, we request that FAA provide clarification as to how it will ensure
grantees complete needed analyses under the Agency’s revised policy.

FAA partially concurred with recommendation 4 and requested that the
recommendation be closed based on the Agency’s 2012 revisions to its cost
analysis policies. However, FAA’s response and its revised policy do not address
the need for negotiations in cases involving a single bidder. Instead, FAA only
focuses on the need to conduct cost analyses in single bidder cases. Yet, as we
note in our report, conducting cost analyses without complementary negotiations
could result in grantees paying more than is reasonable. Therefore, to minimize the
risk of overcharges, we request that FAA provide clarification on what specific
steps grantees must take if their cost analyses are significantly lower than the
single bid received.

FAA partially concurred with recommendation 7, but disagreed with the need to
adopt a formal checklist of financial management requirements to improve its
oversight. FAA’s response maintains that its AIP Handbook provides sufficient
guidance in the financial management area. However, in our opinion, a checklist
or explicit “how to” guidance could help FAA staff better enforce the Handbook’s
financial requirements. For example, while the AIP Handbook requires FAA staff
to hold grantees and contractors responsible for accurately describing and
verifying project work, it does not describe the procedures for doing so. 28 We
believe the shortfalls identified in our report regarding change orders, price and
cost analyses, and single bidder negotiations—as well as over $2 million in agreed
upon improper payments—demonstrate the need for such oversight aids or
additional guidance. Therefore, we request that FAA reconsider its position on this
recommendation.

ACTIONS REQUIRED
We consider recommendations 1, 5, and 6 resolved but open pending the
completion of planned actions. We also consider recommendation 2 resolved, but
open pending receipt of the additional supporting documentation requested. For
recommendations 3, 4, and 7, we request that FAA provide additional information
or reconsider its position. In accordance with Department of Transportation Order
8000.1C, we request that FAA provide us this additional information within
30 days.




28
     See Puerto Rico Port Authority example on page 12 of this report.
                                                                             17


We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please call me at (202)
366-0500 or Darren Murphy, Program Director at (206) 220-6503.

                                       #

cc: DOT Audit Liaison, M-1
    FAA Audit Liaison, AAE-100
                                                                               18


EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Our objectives were to assess whether FAA’s oversight of ARRA
grantees was sufficient to (1) prevent or detect improper payments and (2) ensure
funds were used in accordance with ARRA criteria.

To assess whether FAA oversight was sufficient to ensure compliance with
ARRA, AIP, and other relevant criteria, we contacted key Agency officials in
Headquarters, the Alaskan Regional Office, and 12 of 21 Airport District Offices
(ADOs). At these locations, we interviewed FAA officials responsible for ARRA
grant project and financial management for those airports in our sample. To
identify improper payments and ensure ARRA funds were used properly, we
randomly selected 19 out of 292 airports. We reviewed 58 of 374 payments made
on those grants, and then selected and reviewed 365 line items from those
payments, which allowed us to project our results.

Next, we interviewed airport officials and collected documentation supporting
those payments. We determined whether the sponsor received proper credit for
lower costs of materials or labor when applicable, examined change orders to
determine if work stayed within original contract scope, and determined whether
appropriate price and cost analysis activities were performed. Additionally, we
examined files to ensure appropriate review and approval occurred, verified if
payments were made in accordance with the terms of the contract, and established
that payments did not exceed contract value and the invoicing of labor costs was
adequately documented, recorded, and authorized.

We conducted our work between February 2011 and December 2012 and included
such tests of procedures and records as we considered necessary, including those
providing reasonable assurance of detecting abuse and illegal acts.




Exhibit A. Scope and Methodology
                                                                                            19


EXHIBIT B. IMPROPER ARRA PAYMENTS IDENTIFIED IN OUR
SAMPLE
                                                           Insufficiently
 No.               Airport or Sponsor        Ineligible    Documented         Total
                                                                                   $0.00
    1     Asheville Regional, NC                   $0.00            $0.00
                                                                                 $417.90
    2     Bacon County, GA                         $0.00          $417.90
                                                                                   $0.00
    3     Baltimore/Washington, MD                 $0.00            $0.00
                                                                               $4,284.49
    4     Bob Hope/Burbank, CA                     $0.00        $4,284.49
                                                                                   $0.00
    5     Boston Logan International, MA           $0.00            $0.00

    6     Denver International, CO                 $0.00      $128,486.84    $128,486.84
          Fernando Luis Ribas Dominicci                                       $57,843.64
    7                                         $57,843.64            $0.00
          Airport, PR
                                                                              $35,637.00
    8     Georgetown/Scott County, KY              $0.00       $35,637.00
                                                                                   $0.00
    9     State of Alaska                          $0.00            $0.00
                                                                                   $0.00
  10      Indianapolis Executive, IN               $0.00            $0.00
                                                                                   $0.00
  11      La Grande/Union County, OR               $0.00            $0.00
                                                                               $8,400.00
  12      Merrill Field, AK                        $0.00        $8,400.00
                                                                                   $0.00
  13      Pitt County-Greenville, NC               $0.00            $0.00
                                                                                   $0.00
  14      Pocatello Regional, ID                   $0.00            $0.00
                                                                                   $0.00
  15      Rosebud Sioux Tribal Airport, SD         $0.00            $0.00
                                                                             $920,445.84
  16      San Francisco International, CA    $832,813.49       $87,632.35
                                                                             $164,413.03
  17      Sioux Gateway, IA                        $0.00      $164,413.03
                                                                               $7,890.51
  18      Spokane International, WA                $0.00        $7,890.51
                                                                             $112,644.63
  19      Washington Dulles, VA                    $0.00      $112,644.63

Totals:                                      $890,657.13      $549,806.75   $1,440,463.88




Exhibit B. Improper ARRA Payments Identified in Our Sample
                                                                                                                  20


EXHIBIT C. IMPROPER ARRA PAYMENTS IDENTIFIED OUTSIDE
OUR SAMPLE
                                                                 Insufficiently
     No.         Airport or Sponsor             Ineligible       Documented               Total
                                    29
 1         Asheville Regional, NC                      $0.00        $671,805.12          $671,805.12
 2         Bacon County, GA                            $0.00            $587.61              $587.61
 3         Baltimore/Washington, MD                    $0.00               $0.00                  $0.00
 4         Bob Hope/Burbank, CA                        $0.00               $0.00                  $0.00
 5         Boston Logan International, MA         $35,000.00               $0.00          $35,000.00
 6         Denver International, CO                    $0.00         $42,207.76           $42,207.76
           Fernando Luis Ribas Dominicci
 7                                                     $0.00        $110,558.11          $110,558.11
           Airport, PR
 8         Georgetown/Scott County, KY                 $0.00               $0.00                  $0.00
                             30
 9         State of Alaska                        $14,429.00               $0.00          $14,429.00
 10        Indianapolis Executive, IN                  $0.00           $3,801.76            $3,801.76
 11        La Grande/Union County, OR                  $0.00               $0.00                  $0.00
 12        Merrill Field, AK                           $0.00               $0.00                  $0.00
 13        Pitt County-Greenville, NC           $134,585.00         $620,076.00          $754,661.00
 14        Pocatello Regional, ID                      $0.00               $0.00                  $0.00
           Rosebud Sioux Tribal Airport,
 15                                                    $0.00           $1,824.92            $1,824.92
           SD
           San Francisco International,
 16                                                $9,202.51               $0.00            $9,202.51
           CA 31
 17        Sioux Gateway, IA                           $0.00               $0.00                  $0.00
 18        Spokane International, WA                   $0.00               $0.00                  $0.00
 19        Washington Dulles, VA                       $0.00        $556,053.50          $556,053.50
 Totals:                                         $193,216.51      $2,006,914.78        $2,200,131.29




29
   At Asheville and Pitt County-Greenville, change orders outside our sample increased the overall project cost by
$671,805.12 and $620,076, respectively. As discussed earlier, these change orders were not supported by required price
and cost analyses.
30
   Improper payments included $6,989 for a copy machine and $7,440 for charges allocable to another AIP grant.
31
   We also identified $1.2 million in ineligible AIP payments at SFO (cited in this report). After we brought this to
FAA’s attention, they concurred that the work was ineligible and the funds are recoverable from the airport sponsor.


Exhibit C. Improper ARRA Payments Identified Outside Our Sample
                                                        21


EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT
Name                                Title

Darren Murphy                     Program Director

Chuck Ward                        Project Manager

Diane Brattain                    Senior Auditor

Susan Cohen                       Senior Analyst

Susan Zimmerman                   Senior Auditor

Gloria Muhammad                   Auditor

Petra Swartzlander                Senior Statistician

Megha Joshipura                   Statistician

Amy Berks                         Senior Counsel

Rodolfo Perez                     Engineer Advisor

Aron Wedekind                     Engineer

Audre Azuolas                     Writer-Editor




Exhibit D. Major Contributors to This Report
                                                                                               22


APPENDIX. AGENCY COMMENTS

                    Federal Aviation
                    Administration


Memorandum
Date:          March 11, 2013
To:            Jeffrey B. Guzetti, Assistant Inspector General for Aviation and Special Program
               Audits
From:          H. Clayton Foushee, Director, Office of Audit and Evaluation, AAE-1
Subject:       Federal Aviation Administration’s (FAA) Response to Office of Inspector
               General (OIG) Draft Report on Airport Improvement Program Recovery Act
               Grants




Introduction

FAA’s review of the draft report determined that it concludes over $1.075 billion in payments of
the $1.1 billion in funding made available during the FAA's implementation of the American
Recovery and Reinvestment Act of 2009 (Recovery Act) were proper and well documented.
This is an extraordinary number for a program that obligated over $1 billion to improve airport
infrastructure and create good paying jobs for America. It is important to remember that an
improper payment is a term of art that includes documentation issues, and clerical errors. FAA’s
strong results are particularly noteworthy in light of the extreme time constraints for obligating
these funds, and the extraordinary conditions in place during 2009. These results from a special
legislative program with unique requirements are not indicative of an overall $3.5 billion Airport
Improvement Program in need of enhanced oversight as the title implies.

FAA Successfully Implemented the Recovery Act

FAA implementation of its statutory responsibilities with regard to the Recovery Act were
enormously successful and fully complied with statutory direction and Office of Management
and Budget (OMB) expectations as set forth in its formal guidance.

The Recovery Act was a unique legislative initiative that contained unprecedented requirements
regarding agency oversight, grantee reporting, and project implementation timelines. The FAA
was instructed to use the existing Airport Improvement Program (AIP) processes to administer



Appendix. Agency Comments
                                                                                                23


the Recovery Act. The long standing processes and procedures of the AIP enabled the FAA to
quickly implement airport construction and equipment projects to satisfy the central objectives of
the legislation.

Within a few months of the Recovery Act’s enactment, the FAA enhanced its existing processes
and procedures with formal guidance with more stringent project selection and oversight
requirements. The FAA also developed new sponsor reporting tools. Because the FAA has a
well-developed planning and project selection process, projects were able to start almost
immediately.

Overall, the FAA expended over $1 billion towards 372 projects. The types of projects funded
included construction or rehabilitation of runways, runway safety areas, taxiways, aprons,
terminal buildings, and aircraft rescue and firefighting buildings. Recovery Act funds purchased
aircraft rescue and firefighting equipment and made security improvements. Funds helped
increase capacity through construction of new airports and mitigated the impacts of airport noise.
All of the projects were substantially complete by July 2011.

FAA Works Aggressively to Prevent and Address Improper Payments

The risk of improper payments under the Recovery Act program and the normal AIP was
extremely low. This is evidenced by this audit, the 2008 OIG audit of the AIP, and the annual
reviews conducted by the Department of Transportation (DOT) in compliance with the Improper
Payment Elimination and Recovery Act of 2010 (IPERA).

Every year, the FAA, in conjunction with OST, performs an improper payments review
consistent with IPERA. The results of these test procedures for the past two years attest to the
effectiveness of the FAA’s grants payment management processes. In FY 2012 and FY 2011,
the review estimated an improper payment rate of 0.06% (six one-hundredths of one percent) and
0.89%, respectively. These projections are below OMB’s definition of significant improper
payments ($10 million and 2.5 percent of total program payments or $100 million).

Even with the long standing, successful history of the AIP and the minimal risk of improper
payments, the FAA has diligently increased oversight and strengthened internal control
procedures with minimal increase in FAA staffing resources.

However, several recommendations in this draft report would require specific policy and
procedure changes to areas addressed by the FAA over the last 18 months. These recommended
changes, based on findings from payments made before these changes took effect, presupposes
that the systemic program actions we have taken this past year will be inadequate.

FAA Oversight ensured over $1.075 billion in payments were proper and consistent with
the Recovery Act

Overall the OIG draft report findings pointed primarily to insufficient documentation or
documentation errors, which are usually eligible expenses with minimal if any recoveries.
Additionally, the OIG draft report did not identify any items associated with fraud, waste or
abuse.


Appendix. Agency Comments
                                                                                                24



Based on the OIG draft report findings, well over $1.075 billion of payments made by the FAA
under the Recovery Act were proper and consistent with the intent of the legislation. Of the
$1.44 million identified in its sample by the OIG, which the draft extrapolates to $24 million,
nearly the entirety of items were considered improper for minor documentation errors or for
differences of interpretation of policy/documentation requirements. Many of the items discussed
in the OIG draft report would ultimately be eligible for AIP funding. In addition, similar to the
AIP reviews conducted consistent with IPERA, the amounts identified and projected by the OIG
under the Recovery Act fall below OMB’s definition of significant improper payments.

FAA Effectively Implemented the Recovery Act Legislation to Create Jobs, Revitalize the
Economy, Provide High Quality Airport Infrastructure and Make Lasting Improvements
to the National Airport System

The OIG draft report identifies several areas that it believes the FAA could have better utilized
funding to maximize the benefit of the Recovery Act. While we respect the OIG’s opinion, the
areas identified by did not in any way undermine the effectiveness of the FAA’s implementation
of the program or the positive benefits received from the funding. Like any program where the
needs exceed the resources available, there will be differences of opinion from outside entities on
program decisions. Ultimately, the draft report did not identify the findings in these areas as
improper payments.

For our specific airport by airport response to the OIG findings please see Attachment 1.




Appendix. Agency Comments
                                                                                               25



Recommendations and FAA responses

Recommendation #1: Develop and implement a plan to maximize the recovery of ARRA and
AIP improper payments identified in this report.

Response: Concur. Based on payment specific information from the OIG, the FAA has
identified the following recoverable improper payments. These are enumerated in the table
below and Attachment 1. FAA will complete the appropriate recoveries by December 31, 2013.

         AIRPORT                                                             AMOUNT
         Bob Hope Airport (Burbank, CA)                                       $3,232.60
         Denver International Airport (Denver, CO)                              $319.63
         Georgetown Scott County - Marshall Field
                                                                               $2,187.00
         (Georgetown, KY)
         Huslia Airport (Huslia, Alaska) [State of Alaska]                    $6,989.00
         Pitt-Greenville Airport (Greenville, NC)                           $134,585.00
         Puerto Rico Ports Authority                                         $57,843.64
         San Francisco International Airport (San Francisco, CA)1           $929,648.35
         Total                                                            $1,134,805.22

Based on information provided by the OIG during the audit, and additional review by the FAA, it
was determined that there were additional recoverable amounts totaling $1,193,580.82 at SFO.
A total of $2,123,229.17 will be recovered from SFO.

Recommendation #2: Require ADOs to examine a representative sample of grant payments
each year through direct review of contractors’ invoices and other supporting documents.

Response: Partially-concur. In response in part to an OIG recommendation from a previous
audit, the FAA’s Office of Airports has worked to update its risk-based approach for oversight of
the AIP. The revised risk model and policy were issued on October 1, 2012. The revised policy
provides an electronic tool for the FAA to assess the overall risk of a grantee and requires more
focused oversight through individual program areas such as the grant payment oversight. The
electronic tool contains 10 primary factors that address sponsor's policies and procedures,
internal sponsor controls and resources, IT structure, past performance and several other factors.
The model provides for varying levels of transaction and documentation review based on risk.

In addition, to compliment the updated risk model, in August 2012 the FAA implemented the
Department’s electronic grant payment system, which transitions all AIP grant payment activities
over to an electronic process. The efficiencies and capabilities gained by switching to the new
electronic payment system have enabled the FAA’s Office of Airports to standardize its payment
oversight policies. All sponsors will be required to submit electronic attachments to each
payment request to support reimbursement requests. The airport sponsor’s grant payment risk
level will determine the level of documentation to accompany payment requests and both
policies’ incorporate escalating levels of oversight where appropriate.


Appendix. Agency Comments
                                                                                               26



Finally, each year under the Improper Payment Improvement Act, the FAA samples grant
payments for purposes of determining the rate of improper payments within the AIP.

The FAA in taking the alternative actions described above, is already complying with the intent
of this recommendation, and therefore requests that this recommendation be closed.

Recommendation #3: Revise and enforce Agency policy regarding contract modifications and
change orders by requiring an appropriate dollar threshold for price and cost analysis.

Response: Partially-concur. The FAA’s Program Guidance Letter (PGL) 12-03 dated January
3, 2012, which amended paragraph 906 of FAA Order 5100.38C, provides the requirements for
price and cost analysis. Given this recent change, which was in response to a prior OIG
recommendation, the FAA considers it appropriate for this revision to work its way through the
system prior to making any further revision to policy. As previously discussed, the items
sampled were from before this policy was issued and the clarifications and changes made in
January 2012 will further enhance FAA’s ability to prevent and detect future improper payments.

With respect to establishing a dollar threshold, FAA has determined that such a threshold would
be impractical and potentially detrimental, by refocusing reviews without a specific risk basis.
Moreover, setting a standard threshold figure could create a risk that sponsors, consultants or
contractors might adjust behaviors in order to stay below that threshold. By contrast, FAA has
found the form of the analysis varies depending on the specific circumstances and the nature of
the contract modification or change order. The PGL acknowledges these variations and provides
examples that address changes or modifications that might require alternatives to the listed
analytical procedures (see paragraph 906.d (2)).

The FAA in taking the alternative actions described above, is already complying with the intent
of this recommendation, and therefore requests that this recommendation be closed.

Recommendation #4: Revise Agency policy to require that airport sponsors perform cost
comparisons and contract negotiations in cases involving a single bidder.

Response: Partially-concur. The FAA’s PGL 12-03 dated January 3, 2012, which amended
paragraph 906 of FAA Order 5100.38C, provides the requirements for a cost analysis in cases
involving a single bidder. As with the FAA’s response to recommendation 3 above, given this
recent change based on prior OIG recommendations, the FAA finds no reason for a revision to
existing policy.

The FAA in taking the alternative actions describe above, is already complying with the intent of
this recommendation, and therefore requests that this recommendation be closed.

Recommendation #5: Enhance Agency enforcement policies to ensure airport sponsors or
contractors are held accountable for any cost increases due to errors in project description
documents.




Appendix. Agency Comments
                                                                                                27


Response: Concur. The FAA actively reviews cost increases as evidenced by the example
provided in the draft report. The FAA recognizes that cost increases occur and the reasons for
such increases vary. In the cases referenced in the draft report, the cost increases were necessary
in order for the associated project to comply with FAA construction specifications. Although the
FAA’s intent is to hold contractors accountable for submitted bids (and engineers for the bid
documents they prepare), the FAA’s corrective actions should not negatively affect the intended
project, its designed life-cycle performance or the safety of the traveling public. In many
instances, especially when dealing with large-scale construction projects, changes are necessary.
Field experts (engineers, airport sponsors, and ADO staff) need to have the flexibility to use
professional judgment so that projects can be completed timely and in accordance with federal
requirements.

The FAA will provide additional guidance to our Regional offices with guidance on how to
evaluate change orders related to errors in project description documents by September 30, 2013.

Recommendation #6: Improve the Agency’s oversight and enforcement of airport grant record
keeping by expanding ADO electronic access to sponsor project and grant files.

Response: Partially-concur. FAA recognizes that some grantees have electronic records
management systems that can be made available to ADO staff for oversight of sponsor project
and grant files. FAA will conduct a survey of the extent to which such systems are in use by
airports and the extent to which FAA presently has access to those records. If sponsors have
existing systems and the ADO’s can readily access those systems in their current state, we will
provide recommendations to our field offices to use this access to support grant oversight
activities consistent with current FAA policies and procedures. FAA will complete the sponsor
survey and any necessary guidance by October 1, 2014.

Recommendation #7: Incorporate a checklist into existing ADO grant oversight practices to
verify compliance with relevant OMB and FAA financial policies, particularly in such areas as
cost eligibility, change orders, price and cost analysis, and single bid negotiations.

Response: Partially-concur. The FAA’s AIP Handbook provides sufficient guidance in this area
so that a formal checklist is not required. With respect to OMB and FAA financial policies,
Chapter 3, Section 2 of FAA Order 5100.38C provides the required details on cost eligibility
(allowability, allocability, and reasonableness). With respect to change orders and single bids, as
noted above, the FAA amended its guidance through the issuance of PGL 12-03, which amended
the foregoing Order.

The FAA, in taking the alternative actions described above, is already complying with the intent
of this recommendation, and therefore requests that this recommendation be closed.




Appendix. Agency Comments
                                                                                                                         28


                                     Attachment 1
Response to OIG’s Individual Improper Payment Findings and Recovery Recommendation
         (This Table corresponds to Exhibit B and C of the OIG’s Draft Report)

                              Payment Deemed          Payment Deemed                                    Recoverable
                                                                                  Difference
                              Improper by OIG         Improper by FAA                                     Amount
     Airport Sponsor
                             In Sample
                             Outside Sample

Asheville Regional                           $0.00                  $0.00                   $0.00                   $0.00
Asheville, NC                        $671,805.12                    $0.00            $671,805.12                    $0.00
FAA Comment: Non-concur with OIG finding. The FAA concluded that the engineer/architect review and approval
of change orders satisfied OMB and FAA policy requirements. The payment is not recoverable.


Bacon County                              $417.90                 $417.90                   $0.00                   $0.00
Alma, GA                                  $587.61                 $587.61                   $0.00                   $0.00
FAA Comment: Concur with OIG finding. The amount deemed improper is the sum of over and under payments;
the net amount is an underpayment of $82.47, which is not recoverable.


Bob Hope                                 $4,284.49              $4,284.49                   $0.00              $3,232.60
Burbank, CA                                  $0.00                  $0.00                   $0.00                   $0.00
FAA Comment: Concur with OIG finding. The amount not recoverable pertains to the amount paid for taxiway
roto-milling. The FAA concluded that the documentation evidenced the work was completed.


General Edward
                                             $0.00                  $0.00                   $0.00                   $0.00
Lawrence Logan Int'l
Boston, MA                             $30,000.00              $35,000.00               $5,000.00                   $0.00
FAA Comment: Concur with the OIG finding. The improper payment pertains to the recovery of the field office
facility expense billed as a direct versus indirect cost. Given that the cost is billable as an indirect cost, the FAA
concluded the cost was not recoverable.

Denver International                 $128,486.84               $96,522.60             $31,963.64                 $319.63
Denver, CO                             $42,207.76              $42,207.76                   $0.00                   $0.00
FAA Comment: Partially concur with OIG finding. The FAA found that the items deemed improper were related to
several over or under payments due to payment of estimated invoices throughout the course of the project. While
this is standard industry practice and will ultimately be reconciled as part of the final project billing, the FAA does
not object to the finding. With respect to the difference, the FAA found that the airport sponsor properly withheld
$31,005.07 from payment because the amount of the billing exceeded the contract ceiling. A payment above the
contract ceiling would have been improper. The payment was made once the contract had been properly
amended. The residual of the difference, $958.87, pertains to the allocation of a payment to ARRA rather than AIP.




    The conclusions in the table are based on FAA review of invoices and supporting documentation from the
airport sponsor. Our conclusions, supporting evidence and analyses were submitted to the OIG during the audit.

Appendix. Agency Comments
                                                                                                                   29


                             Payment Deemed         Payment Deemed                                   Recoverable
                                                                               Difference
                             Improper by OIG        Improper by FAA                                    Amount
     Airport Sponsor
                            In Sample
                            Outside Sample

Puerto Rico Ports
                                     $57,843.64             $57,843.64                   $0.00            $57,843.64
Authority
                                    $110,558.11            $110,558.11                   $0.00                 $0.00
FAA Comment: Concur with OIG finding. The finding is comprised of an overpayment of $57,843.64 for
administrative costs due to insufficient documentation of employee time billed to the grant and an underpayment
of $110,558.11 related to additional costs needed to meet FAA engineering specifications.


Georgetown Scott County
                                     $35,637.00               $2,187.00            $33,250.00              $2,187.00
- Marshall Field
Georgetown, KY                             $0.00                  $0.00                  $0.00                  $0.00

FAA Comment: Partially concur with the OIG finding. The recoverable amount, which pertains to overbilling by
the contractor for hours worked by a subcontractor. The FAA does not agree with the balance deemed improper
($33,250), which pertains to billing for underground electrical cable relocation not included in the original project
plans. This work was found to be necessary after project initiation and was billed at the power company’s rate for
such work.


Huslia [State of Alaska]                   $0.00                  $0.00                  $0.00                  $0.00
Huslia, AK                           $14,429.00                 $14,429                  $0.00             $6,989.00
FAA Comment: Concur with the OIG finding. The FAA determined that of the amount found to be improperly
charged to the ARRA grant, $7,440 is allocable to the AIP grant program.


Indianapolis Executive                     $0.00                  $0.00                  $0.00                  $0.00
Indianapolis, IN                        $3,801.76             $3,801.76                  $0.00                  $0.00

FAA Comments: Concur with the OIG finding. This is an underpayment and, therefore, not recoverable.


Merrill Field                           $8,400.00             $8,400.00                  $0.00                  $0.00
Anchorage, AK                              $0.00                  $0.00                  $0.00                  $0.00

FAA Comment: Concur with OIG finding. The finding pertains to insufficient documentation for roto-milling. The
airport sponsor provided photographs that showed the work was completed; however, there was no
documentation of the amount of pavement removed. Given that the evidence showed the work was completed,
the FAA concluded that the payment was not recoverable.




    The conclusions in the table are based on FAA review of invoices and supporting documentation from the
airport sponsor. Our conclusions, supporting evidence and analyses were submitted to the OIG during the audit.

Appendix. Agency Comments
                                                                                                               30


                            Payment Deemed         Payment Deemed                                Recoverable
                                                                            Difference
                            Improper by OIG        Improper by FAA                                 Amount
     Airport Sponsor
                           In Sample
                           Outside Sample

Pitt-Greenville                           $0.00                 $0.00                 $0.00                 $0.00
Greenville, NC                     $754,661.00           $134,585.00           $620,076.00           $134,585.00

FAA Comment: Partially concur with the OIG finding. The OIG finding includes two components: $134,585 for
ineligible costs, which have been recovered, and $620,076.00 in change orders, which the OIG deemed to be
insufficiently documented. The FAA concluded that the engineer/architect review and approval of the change
orders satisfied OMB and FAA policy requirements. The items related to ineligible costs are recoverable.


Rosebud Sioux Tribal                      $0.00                 $0.00                 $0.00                 $0.00
Rosebud, SD                            $1,824.92            $1,824.92                 $0.00                 $0.00

FAA Comment: Concur with the OIG finding. The finding pertains to the cost of money calculation by the
contractor. The contractor used a rate approved by the State of South Dakota, which was not in accordance with
the state agency’s current rate applicable to the period covered by the billing. Given the contractor used a
previously approved rate, the FAA concluded that the amount was not recoverable from the airport sponsor.


San Francisco
                                   $920,445.84           $920,445.84                  $0.00          $920,445.84
International
San Francisco, CA                      $9,202.51            $9,202.51                 $0.00             $9,202.51
FAA Comments: Concur with the OIG finding. Based on information provided by the OIG during the audit, and
additional review by the FAA, it was determined that there were additional recoverable amounts totaling
$1,193,580.82 at SFO. A total of $2,123,229.17 will be recovered from SFO.


Sioux Gateway/Col. Bud
                                   $164,413.03                  $0.00          $164,413.03                  $0.00
Day Field
Sioux City, IA                            $0.00                 $0.00                 $0.00                 $0.00

FAA Comments: Non-concur with the OIG finding. The amount deemed improper by the OIG pertains to
documentation in support of change orders. The FAA concluded that the engineer/architect review and approval
of the change orders satisfied OMB and FAA policy requirements, and the work was necessary for the project. The
FAA has determined it is not recoverable.


Spokane Int'l                          $7,890.51            $7,890.51                 $0.00                 $0.00
Spokane, WA                               $0.00                 $0.00                 $0.00                 $0.00
FAA Comments: Concur with the OIG finding. The airport sponsor corrected these errors on subsequent payments
to contractors and on billings to the FAA. Since the work was necessary for the project, the FAA has determined it
is not recoverable.




    The conclusions in the table are based on FAA review of invoices and supporting documentation from the
airport sponsor. Our conclusions, supporting evidence and analyses were submitted to the OIG during the audit.

Appendix. Agency Comments
                                                                                                               31


                            Payment Deemed        Payment Deemed                                 Recoverable
                                                                            Difference
                            Improper by OIG       Improper by FAA                                  Amount
    Airport Sponsor
                           In Sample
                           Outside Sample

Washington-Dulles Int'l            $112,644.63               $540.00           $112,104.63                 $0.00
Dulles, VA                         $556,053.50                 $0.00           $556,053.50                 $0.00

FAA Comments: Partially concur with the OIG finding. Much of the OIG’s findings ($60,005-In Sample,
$556,053.50 – Outside Sample) are related to the allocation of costs between an ARRA and AIP grant. The FAA has
reviewed these items and determined the billing was appropriate based on the grantee’s applications and
executed grant agreement.

The FAA was not provided with information on payment totaling $51,919.63 for PCCP pavement included within
the sample; therefore, the FAA was unable to perform procedures to assess the OIG’s finding. However,
procedures performed to validate payment for similar payment requests for PCCP pavement on this project found
that the documentation supported fully the payment. Therefore, the FAA would expect the documentation to
support this particular payment as well and has requested documentation for this transaction from the airport
sponsor.
The OIG’s sample also includes an overpayment of $720 for PVC drain piping. The FAA concluded that the airport
sponsor prematurely paid the contractor $540 for a section of PVC pipe that was to be completed at a later date.
All of the work was eventually completed

Since the items above were allocated properly and necessary for the project, the FAA has determined them not
recoverable.




    The conclusions in the table are based on FAA review of invoices and supporting documentation from the
airport sponsor. Our conclusions, supporting evidence and analyses were submitted to the OIG during the audit.

Appendix. Agency Comments
